            Office of Inspector General




October 19, 2004

DAVID C. FIELDS
MANAGER, GREENSBORO DISTRICT

SUBJECT: Audit Report – Self-Service Vending Program – Greensboro District
         (Report Number DR-AR-05-005)

This is one of a series of audit reports on the Self-Service Vending Program in the
Eastern Area. The report presents the results of our self-initiated audit on the
Self-Service Vending Program in the Greensboro District (Project Number
04YG014DR001). The information in this district report will be included in a report to
the Eastern Area Vice President.

                                              Background

The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.

Nationwide, the Postal Service maintains approximately 30,000 vending
machines (27,000 self-service postal centers and 3,000 other types of
vending equipment) that generated over $1.9 billion in revenue during fiscal years
(FY) 2001 through 2003. During FY 2003, the Eastern Area had 4,242 pieces of
vending equipment that generated over $103 million in revenue, of which the
Greensboro District maintained 11 percent (466) of the total area machines that
generated 10 percent ($10.3 million) of the total area vending revenue. During the
first quarter of FY 2004, the Eastern Area had 4,443 pieces of vending equipment that
generated over $27.9 million in revenue, of which the Greensboro District maintained
11 percent (471) of the total area machines that generated over 9 percent ($2.6 million)
of the total area vending revenue.1



1
 During the first quarter of FY 2004, the Eastern Area had 201 additional vending machines and the Greensboro
District had 5 additional vending machines during the first quarter of FY 2004.




    1735 N Lynn St.
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
Self-Service Vending Program –                                                DR-AR-05-005
 Greensboro District


                              Objective, Scope, and Methodology
The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers have effectively redeployed vending equipment that does
not meet minimum revenue requirements in order to maximize revenue, and
discontinued the use of obsolete vending equipment. We also physically observed a
judgmental sample of 20 vending machines to determine whether the machines were
operational and easily accessible. For the 466 vending machines operating in the
Greensboro District during FY 2003, 71 were classified as obsolete based on Postal
Service guidance, while the remaining 395 were classified as current equipment. For
the first quarter of FY 2004, 471 vending machines were operating in the Greensboro
District, of which 72 were classified as obsolete, and the remaining 399 were classified
as current equipment.

During our audit, we visited Postal Service facilities and interviewed managers and
employees; reviewed documentation and applicable policies and procedures; and
analyzed data in the Postal Service’s Vending Equipment Sales and Service System
(VESS) for FY 2003 and the first quarter of FY 2004 to identify obsolete equipment and
equipment that did not meet the minimum revenue requirements.2 Although we relied
on data obtained from VESS, we did not test the validity of the data and controls over
the system.

Audit work associated with the Greensboro District was conducted from March through
October 2004 in accordance with generally accepted government auditing standards
and included such tests of internal controls as were considered necessary under the
circumstances. We discussed our observations and conclusions with appropriate
management officials and included their comments, where appropriate.

                                         Prior Audit Coverage
The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-003,
June 30, 2004), Self-Service Vending Program - Alabama District (Report Number
DR-AR-04-004, June 30, 2004), and Self-Service Vending Program - Atlanta District
(Report Number DR-AR-04-002, July 1, 2004). The reports stated that district officials
could improve their process for redeploying vending equipment that does not meet
minimum revenue requirements. In FY 2003, 54 percent (857 of 1,573) of the vending
machines in the Tennessee, Alabama, and Atlanta Districts did not meet the minimum
revenue requirements and the districts may have missed revenue opportunities of

2
    Obsolete equipment was not included in the minimum revenue analysis.



                                                         2
Self-Service Vending Program –                                                                         DR-AR-05-005
 Greensboro District


approximately $2.7 to $8.5 million by not redeploying this equipment. Additionally,
these districts continued to use 250 obsolete machines and possibly incurred
maintenance and repair expenses. Management agreed with all recommendations and
the actions taken and planned were responsive to the recommendations.

                                               Audit Results
Opportunities exist for Greensboro District officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Specifically, Greensboro District
officials could increase revenue opportunities by redeploying equipment that does not
meet minimum revenue requirements. Further, Greensboro District officials could
possibly reduce maintenance and repair costs by discontinuing the use of obsolete
equipment. However, our physical observation of vending machines in the Greensboro
District indicated that overall the machines were operational and easily accessible, with
one exception.

Redeployment of Vending Equipment

Greensboro District officials could improve their process for redeploying vending
equipment that does not meet Postal Service minimum revenue requirements.
Specifically, during FY 2003, our review of the vending equipment revenue reports
indicated that 57 percent (225 of 395) of the vending machines did not meet the
minimum revenue requirements. Vending equipment sales were approximately
$2.53 million, which was significantly less than the minimum revenue requirement of
$4.52 million. As a result, the Greensboro District may have missed revenue
opportunities of approximately $550,000 to $1.99 million by not redeploying this
equipment.3

Additionally, during the first quarter of FY 2004, our review of vending equipment
revenue reports indicated that 56 percent (224 of 399) of the vending machines did not
meet the minimum revenue requirements. Vending equipment sales were
approximately $531,000, which was significantly less than the minimum revenue
requirement of $950,000. As a result, the Greensboro District may have missed
revenue opportunities of approximately $419,000 by not redeploying this equipment.

One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does

3
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $550,000 represents the
minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $1.99 million represents the maximum total possible missed
revenue opportunities for FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.




                                                          3
Self-Service Vending Program –                                                                         DR-AR-05-005
 Greensboro District


not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self-Service Vending Operational and Marketing Program,
Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions through
December 25, 2003), establishes the minimum revenue requirements for vending
machines. The district retail office is responsible for evaluating equipment revenue to
find the right location for the right machine. If self-service vending equipment is located
in an area where it is unable to generate revenue to meet the minimum requirement, the
equipment must be considered for redeployment. If revenue does not meet the
minimum requirement in three to six accounting periods, the district retail office should
place the equipment on a list for redeployment; notify any office where changes will be
made; prepare a typewritten or computer-generated notice, approved through the
district retail office, to be posted in the lobby informing customers 30 days before
removing the equipment; and complete Postal Service (PS) Form 4805, Maintenance
Work Order, and move the equipment to a better location.

District officials took action to redeploy one vending machine that did not meet minimum
revenue requirements during FY 2003.4 For the remaining 224 vending machines,
district officials did not initiate any redeployment action. Additionally, during the
first quarter of FY 2004, district officials did not initiate any redeployment action for the
224 underperforming machines. District officials indicated that redeployment of the
machines was not considered a high priority due to the unavailability of vending
equipment for new locations. Work efforts were directed to higher priorities such as
contract postal units. By not taking action to redeploy underperforming equipment, the
district could miss revenue opportunities during the remainder of FY 2004.

District officials expressed concern about the Postal Service’s methodology to establish
minimum revenue requirements, and that the current requirements are too high in
relation to the machines geographic locations. We plan to forward the district’s concern
to Postal Service Headquarters.

We discussed the results with Greensboro District officials and they agreed they could
improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements. District officials indicated that plans are
being made to reassess vending locations based on an analysis of vending operations
and receipt of 20 automated postal centers.5




4
  Our review of the revenue reports for the first quarter of FY 2004 indicated that this machine did not meet minimum
revenue requirements.
5
  Automated postal centers are a newly developed kiosk that provides convenient 24-hour automated access to
purchase stamps as well as many premium delivery services such as Express and Priority Mail.



                                                          4
Self-Service Vending Program –                                                                DR-AR-05-005
 Greensboro District


Recommendation

We recommend the Manager, Greensboro District, direct the Retail Manager to:

1. Review revenue reports to identify underperforming equipment; notify postmasters of
   vending equipment that generates low revenue; and giving consideration to all
   feasible alternatives, complete all necessary actions to redeploy underperforming
   equipment as often as possible.

Management’s Comments

Management agreed that opportunities exist to improve the effectiveness and efficiency
of the Self-Service Vending Program. The Retail Vending Coordinator now monitors the
VESS summary reports monthly and makes appropriate recommendations to the
Managers of Retail and Marketing regarding which machines should be redeployed.
The impact on customer satisfaction is considered in making these determinations.

However, management stated disagreement with the assertion that a direct correlation
exists between lost revenue and vending equipment not meeting minimum revenue
requirements. Management’s comments, in their entirety, are included in the appendix
of this report.

Evaluation of Management’s Comments

Management comments are responsive to our recommendation. Regarding
management’s disagreement with a direct correlation between lost revenue and vending
equipment not meeting minimum revenue requirements, we determined that the term
missed revenue opportunities was appropriate as our audit focused on vending
operations. The Postal Service measures the performance of vending operations by
revenue generated; accordingly, we believe the term missed revenue opportunities
appropriately represents the performance measure and that a direct correlation exists
between lost revenue and equipment not meeting minimum revenue requirements
within the confines of assessing the self-service vending program only. Management’s
actions taken or planned should correct the issues identified in the finding.

Use of Obsolete Equipment

In FY 2003, Greensboro District officials continued to use 71 obsolete machines and
possibly incurred maintenance and repair expenses, even though Postal Service policy
discontinued the maintenance and repair support for the machines in June 2000.6 Our
review of vending equipment revenue reports indicated that 87 percent (62 of 71) of the
machines did not meet minimum revenue requirements during FY 2003. Additionally,

6
  This policy supplements Maintenance Management Order, MMO-018-96, June 21, 1996, Discontinuance of Support
for Obsolete Vending Machines. This MMO includes discontinuance of support for recently obsolete models of
vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued on May 18, 2000.



                                                     5
Self-Service Vending Program –                                                                    DR-AR-05-005
 Greensboro District


during the first quarter of FY 2004, our review of vending equipment revenue reports
indicated that 90 percent (65 of 72) of the machines did not meet minimum revenue
requirements.

District officials stated that they continued to use and maintain the obsolete equipment
because of the potential adverse impact on customer service since replacement
equipment was not available. As a result, during FY 2003 and the first quarter of
FY 2004, the district possibly incurred maintenance and repair expenses that may have
exceeded the revenue generated by continuing to operate and maintain the obsolete
machines. We were unable to determine the amount of repair and maintenance
expenses associated with the machines because the Postal Service does not capture
the data for each machine.7

Periodically, the Postal Service lists vending equipment as obsolete, meaning the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be
reported to the district material management specialist. When retail vending equipment
items are obsolete or listed as excess, the Postal Service may consider them for
disposal action. Parts from obsolete machines may be salvaged and stored for
maintenance or repair of other compatible equipment. In June 2000, Postal Service
policy listed the obsolete vending equipment that should no longer receive support from
maintenance organizations.

By continuing to use and maintain obsolete machines, the district will possibly incur
repair and maintenance costs that may exceed the revenue generated. We recognize
management’s desire to provide customer service; however, because the Postal
Service does not capture repair and maintenance, management has no means of
assessing whether the benefits of operating the obsolete equipment outweigh the costs
to operate it. District officials indicated that plans will be made to replace the obsolete
machines when the new automated postal centers are deployed to the district locations.

Recommendation

We recommend the Manager, Greensboro District, direct the Retail Manager to:

2. Consider all feasible alternatives, and complete all necessary actions to eliminate
   repair and maintenance cost for the obsolete equipment.

Management’s Comments

Management agreed to consider all feasible alternatives and complete all necessary
actions to reduce repair and maintenance cost for obsolete equipment, subject to
availability of replacement equipment. District officials are monitoring the service of

7
    We plan to address this issue in a capping report to Postal Service Headquarters officials.



                                                             6
Self-Service Vending Program –                                              DR-AR-05-005
 Greensboro District


obsolete equipment and will remove any obsolete equipment that requires maintenance,
other than equipment requiring minor repairs. Further, Postal Service Headquarters
officials advised that they are in the process of redefining the definition of obsolete
equipment which will impact the number of machines that will be classified as obsolete
in the area and district locations.

Evaluation of Management’s Comments

Management comments are responsive to our recommendation. Management’s actions
taken or planned should correct the issues identified in the finding.

Physical Observation of Vending Machines

Our physical observation of vending machines in the Greensboro District indicated that
overall the machines were operational and easily accessible, with one exception.
Specifically, 95 percent (19 of 20) of the machines judgmentally selected for review
were operating properly and were easily accessible. One machine had a notice posted
as being out of service in May 2004; however, this machine was not yet listed in VESS
as of the first week in June 2004. District officials indicated the information for the
one machine was not listed in VESS due to a recording time delay. Therefore, we are
making no recommendations to the district regarding this finding.8

The VESS is a nationwide computerized reporting system for the Self-Service
Vending Program, which is used as a management tool for real-time tracking of vending
cost in relation to sales. Data maintained in the VESS database is generated from
PS Form 8130, Vending Equipment Sales and Service Daily Activity Log. Each
employee associated with self-service vending equipment must complete a
PS Form 8130 detailing the equipment serviced and maintained during each month.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




8
    We plan to conduct an audit on the accuracy of data in VESS.



                                                          7
Self-Service Vending Program –                                             DR-AR-05-005
 Greensboro District


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Debra D. Pettitt, Director,
Delivery and Retail, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: John A. Rapp
    Tori L. White
    Linda W. Price
    Brenda Miller
    Steven R. Phelps




                                          8
Self-Service Vending Program –                          DR-AR-05-005
 Greensboro District


                      APPENDIX. MANAGEMENT’S COMMENTS




                                   9
Self-Service Vending Program –        DR-AR-05-005
 Greensboro District




                                 10
Self-Service Vending Program –        DR-AR-05-005
 Greensboro District




                                 11
Self-Service Vending Program –        DR-AR-05-005
 Greensboro District




                                 12
